Cardmember
Agreement
CARDMEMBER AGREEMENT
This Cardmember Agreement (“Agreement”), which includes your Card
carrier and Welcome Letter, is your contract with us and governs the use
of your Card and Account. The Welcome Letter contains important account
information, including your annual percentage rates. Please read and keep
these documents for your records.
You agree to use your Account in accordance with this Agreement. This
Agreement is binding on you unless you have not used or authorized use of
the Card. You must pay us for all amounts due on your Account as specified in
this Agreement. Your Account must only be used for lawful transactions.

02/17
CMA SECURED V2

Secured Mastercard®
Cash Advance Fee: If you use your Account or Card to obtain a Cash Advance,
we will charge a Cash Advance fee of the greater of 4% of the cash advance or
$10.00, unless state law limits the amount we can charge, in which case the fee
shall be the largest amount allowable under state law. State law limits include,
but are not limited to: No fee for IL; Up to $0.25 for NV; Up to the lesser of 1.5%
of the amount of each cash advance or $5.00 for WV; Up to the greater of $2.00
or 2% of advance for TX; Up to the lesser of 2% of amount or $10.00 for IN; Up to
the greater of 2.5% of amount advanced or $2.00 for CO; Up to 4% of advance for
LA; Up to the greater of $10.00 or 4% of each cash advance ($30.00 maximum)
for MN.
The cash advance fee is a finance charge. Interest does not accrue on the fee.

DEFINITIONS
We, us, and our: TMG Financial Services, Inc., the issuer of your credit
Card Account.

OTHER FEES
Some fees vary by state and are disclosed below. Specific fee amounts that
apply to your Account will be disclosed as part of your Welcome Letter.

You, your, and yours: the person who applied to open the Account and any
other person responsible for complying with this Agreement, including the
person to whom we address the billing statements.

Late Payment Fee: We may add a late fee as outlined below to your Account
for each billing period you fail to pay the Minimum Amount Due by the Payment
Due Date (unless otherwise limited by state law). No fee for CT; Up to 5% of past
due amount after 7 days for VA; Up to 5% of past due payment after 10 days for
NY; Up to the greater of 5% of unpaid amount or $10.00 after 10 days for WY; Up
to 5% of unpaid installment, not to exceed $10.00 after 15 days for ME; Up to
5% of unpaid installment, not to exceed $25.00 after 10 days for WV; Up to the
lesser of $5.00 or the balance on balances under $100 or $10.00 for balances
over $100 after 30 days for NC; Up to the greater of $5.00 or 4% of amount of
any delinquency after 15 days for MS; Up to $7.00 for CA; Up to the greater of
$7.20 or 5% of unpaid payment after 10 days, not to exceed $18.00 in SC; Up
to the greater of $7.80 or 5% of amount of the payment after 10 days for MN;
Up to 10% of payment amount after 10 days for WA; Up to the lesser of 10% of
outstanding balance or $10.00 after 15 days in default for MA; Up to the greater
of 5% of installment or $15.00 after 7 days for KY; Up to $15.00 after 10 days for
CO, DC, FL and LA; Up to the lesser of 5% of payment due or $15.00 after 10 days
for TX; Up to the greater of 5% of minimum required payment or $15.00 after
10 days for OH and ID; Up to the greater of 5% of minimum payment or $15.00
after 15 days for MO; Up to the greater of $15.00 or 5% of amount past due for
MI and MT; Up to $15.00 for IA; Up to the greater of $18.00 or 5% of payment in
default after 10 days in AL; Up to $18.50 after 10 days for IN; Up to the greater of
$20.00 or 10% of payment after 15 days in PA; Up to the greater of $24.50 or 5%
of payment after 10 days for OK; Up to $25.00 for AA, AE, AK, AP, AR, AZ, DE, GA,
HI, IL, KS, MD, ND, NE, NH, NJ, NM, NV, OR, RI, SD, TN, UT, VI, VT and WI.

Account: the relationship established between you and us by
this Agreement.
APR: annual percentage rate.
Card: one or more Cards or other Account access devices, including
Account numbers that we issue to you to obtain credit under this
Cardmember Agreement.
Cash Advance: an advance that is charged to your Account with
or in connection with the Card, including obtaining funds through
an automated teller machine (ATM), banking site or financial institution;
making a wire transfer; obtaining a money order, traveler’s check, lottery
ticket, casino chip or similar item; or engaging in a similar transaction.
Purchase: a Purchase is the use of your Card or Account to buy or lease
products or services. The Purchase of cash or cash equivalents, like casino
chips or lottery tickets, is a Cash Advance, not a Purchase.
Secured Card Collateral: The funds that you remit to us and
pledge as security for this Account to be held by us as provided
in this Agreement.
TRANSACTION FEES – FINANCE CHARGES
Transaction Fees and APRs: If you are assessed a transaction fee for a
Purchase made in a foreign currency or a Cash Advance, the transaction fee
may cause the APR on your billing statement on which the transaction first
appears to exceed your normal APR.
Annual Fee: Your Account has an Annual Fee of $29.00, unless a lower state
law limit applies, in which case the fee shall be the largest amount allowable
under state law. This fee will be charged on the first periodic statement you
receive. The Annual Fee will then be charged on or about the same day every
year thereafter. State law limits include, but are not limited to: Up to $12.00 in
MS; Up to $20.00 in KY and NV; Up to $20.00 in lieu of transaction fees in IL;
Up to $24.00 in NC; Up to $25.00 in FL; Up to the lesser of 1% of loan amount
or $29.00 for NY.
Interest does not accrue on this fee.
Foreign Transaction Fee: When you make a transaction outside of the United
States, a fee equal to 1% of the converted transaction amount will be applied to
your Account, unless state law limits the amount we can charge, in which case
the fee shall be the largest amount allowable under state law. State law limits
include, but are not limited to: No fee for CO and NV; Up to the lesser of 1% or
$10.00 for IN.

Returned Payment Fee: We may add a fee as outlined below to your Account
if a payment check or similar instrument is not honored or returned because it
cannot be processed, or if an automatic debit is returned unpaid. We may assess
this fee every time your check or payment is not honored, as permitted by law.
No fee for WY; Up to $10.00 for NV; Up to $15.00 after 2nd presentment for MD;
Up to $20.00 for CT, FL, ID, NY, OH and OR; Up to the greater of $20.00 or 5% of
amount due for IA; Up to $25.00 if check remains unpaid for 15 days after notice
of dishonor is sent for MS; Up to $25.00 for AA, AE, AK, AL, AP, AR, AZ, CA, CO,
DC, DE, HI, IL, IN, KS, KY, LA, MA, ME, MI, MN, MO, MT, NC, ND, NE, NH, NJ, NM,
OK, PA, RI, SC, SD, TN, TX, UT, VA, VI, VT, WA, WI and WV; Up to $25.00 or 5% of
check amount for GA.
Credit Card Replacement Fee: We may add a fee to your Account if you request
a replacement credit Card. This fee is based on the delivery type you request.
The fee is $5.00 for standard delivery; $25.00 if you request a replacement be
delivered two (2) days after your request; $65.00 if you request a non-emergency
delivery shipped via FedEx one (1) day after your request; or $105.00 if you
request an emergency Card replacement which is shipped at time of request
when it is sent via an overnight delivery service. Rush card fees do not apply to
the following states: OK and WY.
Rush PIN Fee: We may add a $10.00 fee to the Purchase balance if you request
your PIN rush-delivered to you via FedEx. Rush PIN fees do not apply to the
following states: OK and WY.

Document Copy Fee: We may add a $15.00 fee to your Account if you request a
copy of a sales slip, refund slip, Cash Advance slip or travel and entertainment (T

& E) draft. Document copy fees do not apply to the following states: IN, OK and WY.

Statement Copy Fee: We may add a $5.00 fee to your Account if you request a
copy of a billing statement. Statement Copy fees do not apply to the following
states: OK and WY.
Research Fee: We may add a fee to your Account for time we spend to research
an item regarding your Account at your request. The fee is $15.00 per hour.
Research fees do not apply to the following states: OK and WY.
YOUR ACCOUNT
Authorized Users: You may allow authorized users to use your Account. You
may request additional Cards for authorized users. You must pay us for all
charges made by authorized users, even if you did not intend to be responsible
for those charges. If you revoke permission for an authorized user to use a
Card or to use your Account, you must notify us for the revocation to
be effective.
Revolving Credit Line: Your initial revolving credit line appears on the Card
carrier and your Welcome Letter. Part of your revolving credit line, called the
Cash Advance limit, is available for Cash Advances. Your Cash Advance limit
appears on your Welcome Letter. We may permit you to incur charges that
cause your New Balance to exceed your revolving credit line. These charges
will be evaluated based on account performance, information contained on
credit bureau reports we review periodically and other credit accounts with
us. If we authorize these charges, you must pay, as part of your Minimum
Payment Due, the amount by which your New Balance exceeds your revolving
credit line, including amounts due to Purchases, Cash Advances, finance
charges, fees or other charges.
Contact Information: You must notify Cardmember Service of a change in
address or other contact information, including state of residence, by calling
888.4.ATIRA.1 (888.428.4721), mailing ATIRAcredit, P.O. Box 14542, Des
Moines, IA 50306-3542 or emailing info@ATIRAcredit.com. (Please note: this
email address is not secure; please do not include your account information.
To discuss account-specific information, please call Cardmember Service.)
Billing Statement: You shall receive a periodic billing statement in accordance
with applicable law if your Account has a debit or credit balance of more
than $1 or a finance charge has been imposed during that billing cycle. If we
deem your Account uncollectible or institute collection proceedings through
an outside agency or attorney, we may stop sending you statements. Periodic
finance charges and fees may continue to accrue even if we stop
sending statements.
The total amount you owe us appears as the New Balance on the billing
statement. To determine the New Balance we begin with the total balance at
the start of the billing period. We add any Purchases or Cash Advances and
subtract any credits or payments credited as of that billing period. We then
add any periodic finance charges or fees and make other adjustments.
Our Communications With You: If we need to contact you to service your
Account or to collect amounts you owe, you authorize us (and our affiliates,
agents and contractors) to contact you at any number you provide, from which
you call us or at which we believe we can reach you. We may contact you in
any way, such as calling or texting. We may contact you using an automated
dialer or prerecorded messages. We may contact you on a mobile, wireless or
similar device, even if you are charged for it.
APRs
APRs Based on Prime: We calculate any APR based on the U.S. Prime Rate
(“Prime Rate”) by adding a margin to the Prime Rate. Your margin is identified
in the Welcome Letter you receive from us. Your APRs are variable and may
increase or decrease if the Prime Rate increases or decreases. For each billing
period, we use the Prime Rate published in The Wall Street Journal ten (10)
business days prior to your statement closing date. If The Wall Street Journal
does not publish the Prime Rate, we may substitute a similar published rate.
A change in the APR due to a change in the Prime Rate takes effect as of the
first day of the billing period for which we calculate the APR. We apply the new
applicable APR to any existing balances, subject to any promotional rates that
may apply.
Effect of APR Increases: If the APR on your Account increases in accordance
with this Agreement and as permitted by law, interest charges and your
minimum payment may increase.
Penalty Rate: We do not charge a penalty rate.

FINANCE CHARGES
Interest Charges: Interest charges are a finance charge added to
your Account when we apply the applicable APR to the balances on
your Account.
When Interest Charges Begin to Accrue: Interest begins to accrue on
Purchases, Cash Advances and any minimum interest charges from the date it
is added to the daily balance and continues to accrue until payment in full is
credited to your Account.
Your Payment Due Date is at least 25 days after the close of each billing
cycle. We will not charge you interest on Purchases that appear on your
billing statement if you pay the New Balance on your statement in full by the
Payment Due Date.
For a Cash Advance, we will begin charging interest on the transaction date.
How We Calculate Your Balance and Interest Charges:
We calculate the interest charge separately for each Balance Subject to
Interest rate, including for Purchases at the current rate, Cash Advances at the
current rate and transactions at different promotional rates, as applicable. Your
billing statement shows each Balance Subject to Interest Rate.
We figure the interest charge on your Account by applying the periodic rate
to the “average daily balance” of Purchases and Cash Advances. The average
daily balances for Purchases and Cash Advances are calculated separately
and determined as follows: To get the “average daily balance” we take the
beginning balance of your Account for each Balance Subject to Interest Rate
each day, add any new transactions in that category (which may include
Purchases / Cash Advances) and subtract any unpaid interest or other finance
charges and any payments or credits. This gives us the daily balance. Then, we
add up all the daily balances (for that Balance Subject to Interest Rate) for the
billing cycle and divide the total by the number of days in the billing cycle. This
gives us the “average daily balance” for each Balance Subject to Interest Rate.
For each Balance Subject to Interest Rate, we multiply the average daily
balance by the applicable periodic rate. The periodic rate referenced in your
Welcome Letter is a ‘monthly’ periodic rate and is calculated by dividing the
APR on the Account by twelve (12). A billing period begins on the day after
the Statement Closing Date of the previous billing period and includes the
Statement Closing Date of the current billing period.
Minimum Interest Charge: If you are charged interest, the charge will be no
less than $0.50. If in NC, no charge.
PAYMENTS
Minimum Payment Due: Each month your statement balance is greater than
$0, you must pay at least the Minimum Payment Due by the Payment Due
Date. To calculate the Minimum Payment Due, we begin with any past due
amount and add any amount in excess of your revolving credit line. We then
apply the minimum payment disclosed in your Welcome Letter.
The Minimum Payment Due never exceeds the New Balance.
In calculating the Minimum Payment Due, we may subtract from the New
Balance certain fees added to your Account during the billing period.
Application of Payments: Each billing period, to the extent your payment
exceeds the Minimum Payment Due shown on your current billing statement,
we will apply the excess amount to the balance of each transaction category
beginning with the balance subject to the highest APR. Otherwise, we will
apply payments and credits at our discretion. In all cases, we will apply
payments and credit in accordance with applicable law.
Payment Instructions: Payments are credited in accordance with the payment
instructions on the billing statement. Payments received in proper form
online, at your financial institution or at our processing facility by 5 p.m. local
time on any day will be credited as of that day. Payments received online, at
your financial institution or at our processing facility after 5 p.m. local time
will be credited as of the next day. You must pay us in U.S. dollars using a
check, similar instrument or automatic debit that is drawn on and honored
by a financial institution in the U.S. Do not send cash. We can accept late or
partial payments, and payments that reflect “paid in full” or other restrictive
endorsements, without losing our rights. We reserve the right to accept
payments made in foreign currency and instruments drawn on funds on
deposit outside the U.S. If we do, we select the currency conversion rate at
our discretion and credit your Account in U.S. dollars after deducting any costs
incurred in processing your payment, or we may bill you separately for
such costs.

Foreign Currency Conversion Procedures: If you make a transaction in a
foreign currency, other than a Cash Advance made at your financial institution
or ATM of one of our affiliates, Mastercard® converts the amount into U.S.
dollars as follows: Mastercard complies with its foreign currency conversion
procedures then in effect. Mastercard currently uses a conversion rate in
effect one day prior to its transaction processing date. Such a rate is either a
wholesale market rate or the government mandated rate.
The foreign currency conversion rate in effect on the applicable processing
date for a transaction may differ from the rate in effect on the Transaction or
Post Date on your billing statement for that transaction.
If a transaction is converted by a third party prior to such transaction being
processed by Mastercard, the foreign currency conversion rate for that
transaction will be the rate selected by that third party.
CREDIT REPORTING
We may report information about your Account to credit reporting agencies.
Late payments, missed payments or other defaults on your Account may
appear on your credit report. If you request Cards on your Account for others,
we may report account information in the names of those other people as
well. We may also obtain subsequent credit reports on you (for example,
when we review your Account for a revolving credit line increase). If you wish
to know which agencies we contacted, write us at the Cardmember Service
address on your billing statement.
If you think we reported erroneous information to a credit reporting agency,
write us at the Cardmember Service address on your billing statement. We
will promptly investigate the matter and if we agree with you, we will contact
each credit reporting agency to which we reported and request a correction.
If, after our investigation, we disagree with you, we will tell you in writing or by
telephone how to submit a statement to those agencies for inclusion in your
credit report.
CHANGES TO THIS AGREEMENT
We may change the rates, fees and terms of this Agreement at any time for
any reason, as permitted by law. Further, we may be compelled to change the
rates, fees and terms of this Agreement if you change your state of residence.
We will provide you notice of changes as required by law. Any changes to this
Agreement are binding on you.
DEFAULT
You will be in default under this Agreement if you fail to pay the Minimum
Payment Due by its due date; pay by a check or similar instrument that is
not honored or that we must return because it cannot be processed; pay
by automatic debit that is returned unpaid; make any false or misleading
statements in any credit application or credit update; file for bankruptcy;
close your Secured Card Collateral Account without also closing and paying
the remaining balance of this Account; or die. You will also be in default if you
fail to comply with the terms of this Agreement or any other Agreement you
have with us. If you default, we may close your Account, exercise any security
interest we have, including the security interest in the Secured Card Collateral
Account, and require you to pay any unpaid balance immediately, subject to
applicable law.
AUTHORIZATIONS, CLOSED ACCOUNTS
AND RELATED PROVISIONS
Authorizations: We do not guarantee authorization of a transaction, either
by us or by a third party, even if you have sufficient credit available. We
reserve the right to deny certain transactions for any reason and at our sole
discretion, including for default, suspected fraudulent or unlawful activity,
internet gambling or any indication of increased risk related to the transaction
or the Account. You agree that we will not be liable for failing to give an
authorization. We also reserve the right to limit the number of transactions
that may be approved in one day. If we detect unusual or suspicious activity,
we may suspend your credit privileges until we can verify the activity, or we
may close the Account.
Preauthorized Charges: If you default, if the Card is lost or stolen or we change
the Account for any reason, we may suspend automatic charges with third
party vendors. If preauthorized charges are suspended, you are responsible
for making direct payment for such charges until you contact the third party to
reinstate the automatic charges.
Lost or Stolen Cards or Account Numbers: If any Card or Account number
is lost or stolen or if you think someone used or may use them without
permission, call Cardmember Service immediately at 888.4.ATIRA.1. We may
require you to provide certain information in writing to help us find out what
happened and to comply with our investigation. You must identify for us the

charges that were not made by you, or someone not authorized by you and
from which you received no benefit. You will not be liable for any unauthorized
use that occurs after your notify us. You may be liable for unauthorized use
that occurs before your notice to us. However, if you exercise reasonable care
in safeguarding your card from risk of loss or theft and, upon discovering the
loss or theft promptly report the loss or theft to us, you will not be liable for
any unauthorized transactions. In any case, your liability will not
exceed $50.00.
Closing Your Account: You may close your Account by notifying us in writing
or calling the Cardmember Service number shown on your billing statement or
on the back of your credit Card but must still repay the total balance remaining
on the Account (identified as “New Balance” on your statement) in accordance
with this Agreement. We may close your Account or suspend Account
privileges at any time for any reason without prior notice. We may also reissue
a different Card at any time. You must return any Card to us upon request.
See “Security Interest In Secured Card Collateral” section for provisions on the
return of any available collateral upon the closing of your account.
Security Interest In Secured Card Collateral Account: You authorize us to
hold your Secured Card Collateral in an account at a federally-insured deposit
institution. You agree to remit a deposit for the Secured Card Collateral
and to maintain the minimum balance provided in the Welcome Letter. In
consideration of us issuing you this account, you pledge, grant and assign to us
a security interest in the Secured Card Collateral. This security interest includes
all renewals, additions to, and proceeds in the Secured Card Collateral. You
agree that this security interest, pledge, and assignment gives us the exclusive
right to draw from the Secured Card Collateral any part or the full amount
you owe us under this Agreement. You may not use, transfer, or grant another
security interest in the Secured Card Collateral while it secures this Account.
The Secured Card Collateral will not earn any interest. This security interest,
pledge, and assignment is given as security for any and all amounts you may
owe, including but not limited to interest, fees and charges which may accrue
under the Account. You agree that if this Account is closed for any reason, the
Secured Card Collateral will be used to pay off any balance on this Account. If
there are still funds remaining in the Secured Card Collateral after doing so,
these funds may remain on deposit for up to 60 days before being remitted
to you.
WHAT TO DO IF THERE IS AN ERROR IN YOUR BILL
Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
ATIRAcredit, P.O. Box 14542, Des Moines, IA 50306-3542.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do we are not required to investigate any potential errors and you may have to
pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent
on that amount.
• The charge in question may remain on your statement, and we may continue
to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think
you owe.
If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do
so, we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first
$50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit Card and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due
on the Purchase.
To use this right, all of the following must be true:
1. The Purchase must have been made in your home state or within 100 miles
of your current mailing address, and the Purchase price must have been
more than $50.00. (Note: Neither of these are necessary if your Purchase
was based on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit Card for the Purchase. Purchases made
with Cash Advances from an ATM or with a check that accesses your
Account do not qualify.
3. You must not yet have fully paid for the Purchase.
If all of the criteria above are met and you are still dissatisfied with the
Purchase, contact us in writing at ATIRAcredit, P.O. Box 14542, Des Moines, IA
50306-3542.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay,
we may report you as delinquent.
DISPUTE RESOLUTION
Any dispute, controversy or claim arising under or otherwise in connection
with this Agreement (including any breach, termination, validity or
enforceability of any provision hereof) (a “Dispute”) shall be resolved as
follows: Either Party may submit the Dispute to non-binding mediation
in the State of Iowa, in accordance with the Rules of Arbitration then
prevailing of the American Arbitration Association (the “Rules”). The Parties
will mutually agree upon the mediator. If the Parties are unable to agree
upon the mediator, the mediator will be selected by the Des Moines, Iowa
office of the American Arbitration Association. If the Dispute is not resolved
through mediation within ten (10) business days after the conclusion of the
Hearing (as defined below), the Dispute may be submitted to arbitration in
Des Moines, Iowa for resolution by final and binding arbitration by a sole
arbitrator under the Rules, upon written notice of demand for arbitration
by the Party seeking arbitration, setting forth the specifics of the matter in
controversy or the claim being made.

Enforcing this Agreement: We can delay in enforcing or fail to enforce any of
our rights under this Agreement without losing them.
Collection Costs: If we refer collection of your Account to a lawyer who is not
our salaried employee, you are liable for any reasonable attorney’s fees we
incur, plus the costs and expenses of any legal action, to the extent applicable
by law.
Assignment: We may assign any or all of our rights and obligations under this
Agreement to a third party.
California Residents: A married applicant may apply for a separate account.
Applicants: 1) may, after credit approval, use the credit card account up to its
credit limit; 2) may be liable for amounts extended under the plan to any joint
applicant. As required by law, you are hereby notified that a negative credit
report reflecting on your credit record may be submitted to a credit reporting
agency if you fail to fulfill the terms of your credit obligations.
Connecticut Residents: This is an open-end loan being made pursuant to
Connecticut Statutes Sections 36a-555 to 573.

Florida Residents: You (borrower) agree that, should we obtain a judgment
against you, a portion of your disposable earnings may be attached or
garnished (paid to us by your employer), as provided by Florida and
Federal law.
Missouri Residents: Oral agreements or commitments to loan money,
extend credit or to forbear from enforcing repayment of a debt including
promises to extend or renew such debt are not enforceable. To protect you
(borrower(s)) and us (creditor) from misunderstanding or disappointment,
any agreements we reach covering such matters are contained in this
writing, which is the complete and exclusive statement of the agreement
between us, except as we may later agree in writing to modify it.
New York Residents: We may obtain a credit report in connection with
this Account, including for any review, modification, renewal or collections
associated with this Account. Upon your request, you will be informed
whether such report was requested and, if so, the name and address of the
consumer reporting agency furnishing the report. New York residents may
contact the New York State Banking Department at 877.226.5697 to obtain a
comparative listing of credit card rates, fees and grace periods.
Ohio Residents: The Ohio laws against discrimination require that all creditors
make credit equally available to all creditworthy customers and that credit
reporting agencies maintain separate credit histories on each individual upon
request. The Ohio Civil Rights Commission administers compliance with
this law.
South Dakota Residents: If you believe there have been any improprieties in
making this loan or in the lender’s loan practices, you may contact the South
Dakota Division of Banking at
1601 N. Harrison Ave, Suite 1, Pierre, SD 57501, or by phone
at 605.773.3421.
Wisconsin Residents: If you are married, please contact us immediately upon
receipt of this Agreement at 888.4.ATIRA.1 and provide us with the name and
address of your spouse. We are required to inform your spouse that we have
opened a credit account for you.
FOR FURTHER INFORMATION
Call Cardmember Service at 888.4.ATIRA.1. This number is also shown on your
billing statement and on the back of your Card.

“Hearing” means a hearing before the mediator during which each Party
presents its position regarding the Dispute.
APPLICABLE LAW AND ENFORCING OUR RIGHTS
Applicable Law: The terms and enforcement of this Agreement shall be
governed by federal law and the law of Iowa.
Armed Forces: Federal law provides important protections to members of the
Armed Forces and their dependents relating to extensions of consumer credit.
In general, the cost of consumer credit to a member of the Armed Forces and
his or her dependent may not exceed an annual percentage rate of 36 percent.
This rate must include, as applicable to the credit transaction or account: The
costs associated with credit insurance premiums; fees for ancillary products sold
in connection with the credit transaction; any application fee charged (other
than certain application fees for specified credit transactions or accounts); and
any participation fee charged (other than certain participation fees for a credit
card account). To hear this disclosure orally, please call 844.697.2550.

The ATIRAcredit™ Card is issued pursuant to a license by Mastercard
International Incorporated. Mastercard and the Mastercard Brand Mark are
registered trademarks of Mastercard International Incorporated.
©2017, TMG Financial Services, Inc. ATIRA® is a registered service mark
and ATIRAcredit™ is a service mark of The Members Group, LLC.

